OFFICE OF 
INSPECTOR GENERAL
Semiannual  Report  to  Congress

o c to b er   1 ,   2 0 0 9 – m a rch   3 1 ,   2 01 0

                                                                                 ND RECORD
                                                                               SA         S
                                                                                     L I TTERA
                                                                         NAL CHIVE




                                                                                     SCRIPTA
                                                                                                  AD




                                         national   archives   and

                                                                                     M A NE T
                                                                                                    MINISTRAT
                                                                            AR




                                         records  administration

                                                                      TIO




                                                                                                 ON
                                                                                                             I




                                                                                NA
                                                                                     19 8 5
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2


Introduction ...................................................................................................................................7


Activities .........................................................................................................................................9


Audits ...........................................................................................................................................11


Investigations................................................................................................................................18


OIG-Identified Program and Operational Significant Deficiencies........................................24


Top Ten Management Challenges .............................................................................................28


Reporting Requirements ............................................................................................................32





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1

October 1, 2009 to March 31, 2010

EXECUTIVE SUMMARY

This is the 43rd Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of agency material weaknesses we believe exist in NARA
programs and operations is also included, as well as a summary of NARA’s top ten management
challenges. The highlights of our major functions are summarized below.

                                           Audits
In this reporting period, the Audit Division continued to examine the development of NARA’s
Electronic Records Archives system, the security of NARA’s Information Technology (IT)
systems, and to assess the economy and efficiency of NARA’s programs. Our work this period
had a positive impact on agency operations and related controls in these critical areas.
Recommendations directed to NARA officials will, upon adoption, translate into reduced risk
for the agency and increased levels of security and control over NARA’s financial assets,
programs and operations.

We issued the following audit reports during the reporting period:

   •   NARA’s Oversight of Electronic Records Management in the Federal Government.
       Our objective was to determine whether management controls provided reasonable
       assurance electronic records designated as “permanent” were adequately identified,
       scheduled and obtained by NARA. The controls in place are not adequate to protect
       permanent Federal electronic records from loss, and thus the Electronic Records
       Management area is a Material Weakness. Specifically, NARA cannot reasonably
       ensure permanent electronic records are being adequately identified, maintained, and
       transferred to NARA in accordance with Federal regulations. NARA is working toward
       improving electronic records management in the Federal Government, mainly through
       the development and promulgation of regulations and guidance for the proper
       management of these records, yet significant deficiencies remain. We identified the
       following factors contributing to this condition: (a) NARA does not have a fully
       integrated program for adequately addressing electronic records management (ERM);
       (b) NARA lacks systematic information on government-wide ERM practices and
       compliance with electronic record regulations, guidance and policies – including a
       program supporting inspections of the record keeping programs and practices of Federal
       agencies; (c) the universe of electronic records and electronic recordkeeping systems has
       not been adequately identified, and; (d) NARA lacks an approach to adequately identify
       possible gaps in scheduled permanent electronic record accessions. We made seven
       recommendations for program improvement. Management concurred with
       recommendation one and requested recommendations two through seven be held in
       abeyance until recommendation one has been addressed. (OIG Report #10-04, dated
       April 2, 2010. See page 12.)

   •   Search Engine Analysis of Online Public Access to the Electronic Records Archives.
       Electronic Records Archives (ERA) program officials did not independently test or
       analyze the application chosen to run ERA’s public search engine prior to its selection
       for the program. Instead, NARA relied exclusively on the recommendation of the ERA

SEMIANNUAL REPORT TO CONGRESS                                                           Page 2
October 1, 2009 to March 31, 2010
EXECUTIVE SUMMARY

       contractor. NARA ERA program officials could not provide OIG auditors with sound
       and transparent documentation to validate the search engine selection for the largest IT
       project ever undertaken by this agency, and one that will impact all NARA stakeholders
       for the foreseeable future. NARA’s IT Architecture Systems Development Guidelines
       require that after evaluating commercial off-the shelf products, the findings must be
       documented and justified. In this case, NARA accepted the ERA contractor’s selection
       to the exclusion of other vendors and search engines based upon incomplete analysis,
       and devoid of actual ERA technical staff hands-on testing. (Audit Report #10-03, dated
       January 28, 2010. See page 13.)

   •	 National Historical Publications and Records Commission (NHPRC) Grant No.
      2004-026. The objectives of this audit were to determine whether (1) funds expended
      were used in accordance with Federal guidelines and (2) NARA objectives for issuing
      the grant were accomplished. Although the grant objectives were met, we questioned the
      entire Federal grant award of $762,320 provided due to lack of documentation/
      timesheets supporting labor costs. The grant agreement identified that all Federal funds
      were used for labor expenses. The grantee was unable to provide required personnel
      activity reports or timesheets to support labor expenses reportedly incurred. Grantee
      personnel stated they were unaware timesheets were required and, thus, did not have a
      process to record and document their labor costs even though this requirement was
      documented in the grant award. Thus, we were unable to determine the validity of
      Federal funds paid. Management concluded sufficient evidence existed to substantiate
      that the Federal funds granted were used in an appropriate manner by the grantee, and
      there was no reason to consider seeking recovery of any funds. Additionally,
      management indicated steps would be taken in the future to prevent additional
      occurrences of this event. (Audit Report #10-01, dated October 26, 2009. See page 15.)

   •	 NARA’s Fiscal Year 2009 Financial Statements. Cotton & Company LLP (C&C), a
      public accounting firm, audited NARA’s consolidated balance sheets as of September
      30, 2009, and the related statement of net cost, changes in net position and budgetary
      resources. C&C issued an unqualified opinion on NARA’s FY 2009 financial
      statements. This is the fourth year in a row NARA received an unqualified opinion.
      C&C disclosed no material weaknesses and no instances of noncompliance with certain
      provisions of laws and regulations. However, C&C reported two significant deficiencies
      in internal controls over financial reporting in the areas of Personal Property and
      Information Technology resulting in 18 recommendations that, if implemented, should
      correct the matters. Management concurred with the recommendations. (Audit Report
      #10-02, dated December 11, 2009. See page 16.)




SEMIANNUAL REPORT TO CONGRESS                                                           Page 3
October 1, 2009 to March 31, 2010
EXECUTIVE SUMMARY

                                    Management Letters

•	 Proactive Holdings Security Exercise. The Office of Investigations conducted an
   unannounced proactive holdings security assessment designed to test the balance
   between access to, and security of, our nation’s historical records at various facilities.
   Major security lapses were identified and exploited, calling into question the adequacy of
   management controls and security measures in place to protect the records of our
   democracy. Observations and weaknesses observed were communicated to the Archivist
   and management. Currently management is putting together a plan to address the
   weaknesses noted. (Management Letter #OI-10-02, dated March 4, 2010.)

•	 Security Conditions in Research Rooms. Through this management letter we
   informed the Archivist of the results of an unannounced visit of the research room at a
   NARA facility. OIG staff questioned research room staff on their roles and duties
   related to physical security and theft prevention/detection, and evaluated certain security
   equipment. We found the lack of viable security equipment, paired with ineffectual
   operational security fostered an environment in which holdings were at constant risk of
   theft. Currently management is developing a plan to address these conditions.
   (Management Letter #10-06, dated March 15, 2010.)

•	 1930 Census Website Contracting Issues. The OIG advised the Archivist of
   contracting problems surrounding the NARA’s 1930 Census microfilm locator website,
   http://1930census.archives.gov/. While NARA’s ineffectual record keeping prevents any
   positive conclusion, it appears from approximately April 2003 until June 2006 NARA
   used web-hosting services for this site from a contractor without specifically paying for
   them. The lack of effective file keeping prevents a definitive calculation of the fair
   market value of these services. Federal agencies are not allowed to accept gratuitous
   services, gifts, or voluntary services from contractors except under very limited
   circumstances specifically allowed by law. In the present case there was no authority for
   NARA to accept services for free. While we found no evidence of untoward conduct by
   any of the parties involved, there is certainly a perception issue when the government
   receives free services from a contractor. (Management Letter #10-01, dated March 2,
   2010.)

•	 Award Fee Program for the Electronic Records Archives Development Program.
   Through this management letter we made the Archivist aware that issues previously raised
   about the ERA award fee program in OIG Management Letter Report No. 09-08, “Award
   Fee Program for the ERA Contract,” dated January 15, 2009, have not been appropriately
   addressed and the current ERA award fee program is still not functioning in an efficient and
   effective manner. In their action plan to address issues raised in the previous letter,
   management stated they would develop a new award fee plan. However, this has not
   occurred. Further, the ERA office did not follow the award fee plan NARA did have.
   Among other issues, the ERA office did not keep appropriate written documentation and
   records of their decisions, evaluation reports were inconsistent with the requirements of the
   award fee plan and inconsistent in content, and NARA was late in evaluating and paying the
   contractor award fees. (Management Letter #10-08, dated March 24, 2010.)

SEMIANNUAL REPORT TO CONGRESS                                                             Page 4
October 1, 2009 to March 31, 2010
EXECUTIVE SUMMARY

                                      Investigations

During this reporting period, the Office of Investigations (OI) opened 10 investigations and
closed 18 investigations, three of which are closed pending an administrative response from
NARA. The OI also received 46 complaints and closed 33 complaints, four of which are closed
pending an administrative response from NARA. Three NARA holdings were recovered during
the period. Additionally, the OI worked with the State Department’s Diplomatic Security
Service, the Federal Protective Service, the Department of Justice’s Computer Crime and
Intellectual Property Section, the FBI, the U.S. Secret Service, the U.S. Postal Inspection
Service, and the Offices of Inspectors General at the Veterans Administration, the General
Services Administration, the Department of Labor, and the Small Business Administration. At
the close of the period, there remained 39 open complaints and 35 open investigations.

The OI completed investigations in a variety of areas including the following:

   •   Distribution of Pornography via Government Computer
   •   Holdings Security
   •   Misuse of Government Credit Card
   •   Fraudulent Use of the NARA Seal
   •   Inappropriate Foreign Travel
   •   Destruction and Disposal of Historical Records
   •   Stolen/Missing Hard Drive
   •   Stolen/Missing Computer Tapes
   •   Conflicts of Interest

The Office of Investigations is presently staffed with five 1811 series Special Agents, an
investigative archivist, a computer forensic analyst, and an Assistant Inspector General for
Investigations. Two additional agents are anticipated in the next reporting cycle. This team
provides investigative coverage to an approximately 3,000-person, 44-facility, nationwide
agency that includes the Presidential library system. This broad-based area of operations
presents a demanding investigative challenge to provide real-time coverage when multiple
incidents occur requiring a rapid response. The OI conducts both responsive and proactive
investigations in order to support our statutory mission. We have expanded our physical
presence with the staffing of our office at the National Archives facility in Washington, DC,
and anticipate that presence will continue to grow.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 5
October 1, 2009 to March 31, 2010
EXECUTIVE SUMMARY

                                Management Assistance

•	 Referred three cases from the Archival Recovery Team to the Office of General Counsel
   pursuant to NARA Directive 1462.

•	 Members of the Office of Investigations, and particularly, the Archival Recovery Team, met
   with staff from NARA’s new Holdings Protection Program in an effort to marshal our
   collective resources to discover new avenues and approaches to providing adequate security
   and control of our nation’s historical records.

•	 The Office of Investigations Computer Crime Lab assisted NARA in the forensic analysis of
   a 2-terabyte hard drive for classified information and personally identifiable information
   (PII).

•	 Responded to multiple requests for OIG records under the Freedom of Information Act

•	 Provided comment and input into several NARA directives.




SEMIANNUAL REPORT TO CONGRESS                                                        Page 6
October 1, 2009 to March 31, 2010
INTRODUCTION

       About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 31 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains hundreds of thousands of
artifact items and over 6.7 billion logical data records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2009, NARA had 37.5
million online visits in addition to hosting 3.7 million traditional museum visitors, all while
responding to 1.4 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2010, NARA was appropriated an annual budget of approximately $469.8
million and 3,214 (estimated) Full-time Equivalents (FTEs), including appropriations of $339
million for operations, $85 million for the Electronic Records Archives (ERA) program, $27.5
million for repairs and restorations of facilities, and $13 million for grants. NARA operates 44
facilities nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 7
October 1, 2009 to March 31, 2010
INTRODUCTION

                 About the Office of Inspector General (OIG)

The OIG Mission
The OIG’s mission is to ensure NARA protects and preserves the items belonging in our
holdings, while safely providing the American people with the opportunity to discover, use and
learn from this documentary heritage. We accomplish this by providing high-quality, objective
audits and investigations; and serving as an independent, internal advocate for economy,
efficiency, and effectiveness.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•	 assesses the effectiveness, efficiency, and economy of NARA programs and operations

•	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies

•	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and

•	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2010, a separate appropriation was established for the OIG in compliance with the
Inspector General Reform Act of 2008, previously funds for the OIG were in NARA’s Operating
Expenses appropriation. For FY 2010, Congress provided $4.1 million for the OIG, including
resources for three additional positions and raising the OIG FTEs level from 19 to 23. During
the period the OIG began the process to fill the three positions. At current staffing, the OIG has
one Inspector General, one support staff, nine FTEs devoted to audits, eight FTEs devoted to
investigations, and a counsel to the Inspector General.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 8
October 1, 2009 to March 31, 2010
ACTIVITIES

             Involvement in the Inspector General Community

CIGIE Investigations Committee
The IG served as a member of the Counsel of Inspectors General on Integrity and Efficiency’s
Investigations Committee. The mission of the Investigations Committee is to advise the IG
community on issues involving investigative functions, establishing investigative guidelines, and
promoting best practices.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI served as vice-chair to the AIGI Committee, which serves as a standing subcommittee
to the CIGIE Investigations Committee. The AIGI Committee provides guidance, assistance and
support to the CIGIE Investigations Committee in the performance of its duties. In addition, the
AIGI Committee serves as a conduit for suggestions, issues and concerns that affect the OIG
investigations community to the CIGIE Investigations Committee for appropriate action.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel is an active participant in meetings of the CCIG, and communicated regularly
with fellow members. In these meetings multiple topics were raised, discussed, and addressed,
including the operation and staffing of the new Counsel of Inspectors General on Integrity and
Efficiency, launching a new interactive CCIG website, changes to various Federal laws and
policies, the training of IG criminal investigators, and various high-profile investigations in the
IG community.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. During the period, the AIGA attended FAEC’s meeting to discuss topics such as
financial statement audit issues, audit training, opinion reports on internal controls, and
information security.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 9
October 1, 2009 to March 31, 2010
ACTIVITIES

                          Response to Congressional Items


Testimony Before the Information Policy, Census, and National Archives
Subcommittee of the House Oversight and Government Reform Committee
On November 5, 2009, the IG testified before the Information Policy, Census, and National
Archives Subcommittee of the House Oversight and Government Reform Committee. The
hearing was titled “The National Archives’ Ability to Safeguard the Nation’s Electronic
Records.” The IG’s testimony focused on recent incidents where NARA’s actions exposed or
potentially exposed Personally Identifiable Information (PII), including the loss and mishandling
of several computer hard drives. The IG also discussed concerns with the ERA system.

Federal Information Security Management Act (FISMA) Reporting
As required by the Federal Information Security Management Act (FISMA), the OIG completed
an evaluation to determine the effectiveness of NARA’s information security program and
practices. NARA officials have made several improvements in information security during FY
2009. However, many of the information technology (IT) security weaknesses identified in the
2008 Audit of the NARA’s Compliance FISMA (OIG Audit Report No. 08-05), had not been
addressed. Specifically, all 21 recommendations remained open because management had not
completed recommended actions or actions taken did not address the intent of the
recommendations.

Additionally, during the FY 2009 evaluation we observed the following: (a) NARA’s IT Security
Policies need to be strengthened, particularly in the areas of oversight of contractor systems,
plans of actions and milestones (POA&M), protection of privacy-related information,
configuration management, and security training of employees with significant IT security
responsibilities; (b) weaknesses continued in NARA’s Certification and Accreditation (C&A)
process for the security of IT systems; (c) weaknesses continued in the internal and external
reporting of incidents, including proper notifications to the OIG in accordance with policies and
procedures; and (d) improvements were still needed in the agency’s Privacy program and the
protection of personally identifiable information (PII). Specifically, technical controls, such as
two-factor authentication and encryption of portable devices were not fully implemented during
FY 2009.

Reporting on the Missing Hard Drive Containing Information from the
Clinton White House
The OIG investigation into the circumstances surrounding a missing external computer hard
drive containing approximately two terabytes of material from the Clinton White House was
completed during this reporting period. The House Oversight and Government Reform
Committee requested a copy of the Report of Investigation. This report detailed the lack of
appropriate security and controls over the hard drive.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 10
October 1, 2009 to March 31, 2010
AUDITS

                                                  Overview

This period, we issued:

    •	 four final audit reports, and
    •	 four management letters. 1

We completed fieldwork on the following audits:

    •	 an audit of NARA’s Network Infrastructure to determine whether NARA had effectively
       implemented appropriate physical security and access controls to protect network
       resources

    •	 an audit of NARA’s Information Technology and Telecommunications Support Services
       contract to determine if (a) the procurement was accomplished in accordance with the
       FAR requirements, and (b) management officials adequately monitor contractor efforts,
       to ensure the government gets good value for the funds expended on the contract

    •	 an audit of the NARA’s Performance Measurement Data to assess the accuracy and
       reliability of performance data entered into NARA’s Performance Measurement
       Reporting System and reported to OMB, and

    •	 an audit of the Process for Providing and Accounting for Information Provided to
       Researchers to determine whether controls were in place for ensuring requested records
       were properly accounted for when requested and returned to storage locations.

We continued work on the following assignments:

    •	 an audit of NARA’s Oversight of Selected Grantees’ Use of Grant Funds to determine
       whether management controls are adequate to ensure (1) grants are properly
       administered, (2) grant goals and objectives are adequately met, and (3) grant funds are
       adequately accounted for and expended

    •	 progress reviews of the Electronic Records Archives development to report progress to
       ERA stakeholders including achievements, challenges, risks, and concerns

    •	 an audit of NARA’s Movement of Freight Shipments to assess whether controls are
       effective and efficient to ensure that NARA obtains the best value and most economical
       prices for the movement of freight

    •	 an audit of the NARA’s NARANET Server Upgrade Project to determine whether the
       project was developed in accordance with NARA requirements and that system


1 Management letters are used to address issues, not resulting from an audit, which need to be quickly brought to the
Archivist’s or management’s attention.

SEMIANNUAL REPORT TO CONGRESS                                                                              Page 11
October 1, 2009 to March 31, 2010
AUDITS

        development is adequately managed and monitored to ensure requirements are met in the
        most economical and efficient manner, and

    •	 an audit of the Trusted Internet Connections Initiative at NARA to determine whether the
       agency is prepared to meet and comply with the goals of this OMB initiative.

                                         Audit Summaries
Oversight of Electronic Records Management in the Federal Government
The objective of our audit was to determine whether established controls provide adequate
assurance permanent electronic Federal records are identified, scheduled, and accessioned into
NARA in fulfillment of NARA’s statutory obligations.

Specifically, we found NARA cannot reasonably ensure electronic records designated as
“permanent” are being adequately identified, maintained, and transferred to NARA in
accordance with Federal regulations. While NARA is working toward improving electronic
records management in the Federal Government, mainly through the development and
promulgation of regulations and guidance for the proper management of these records,
significant deficiencies remain. We identified the following factors as contributing to this
condition: (a) NARA does not have a fully integrated program for adequately addressing
electronic records management (ERM); (b) NARA lacks systematic information on government-
wide ERM practices and compliance with electronic record regulations, guidance and policies;
including a program supporting inspections of the record keeping programs and practices of
Federal agencies; (c) the universe of electronic records and electronic recordkeeping systems has
not been adequately identified, and; (d) NARA lacks an approach to adequately identify possible
gaps in scheduled permanent electronic record accessions.

As a result, permanent records which are born and remain digital throughout their lifecycle are at
increased risk of loss, thereby denying their future use to the American public. These
historically significant and valuable records are not being adequately identified, effectively
managed and monitored, and aggressively targeted. Electronic records of our democracy being
born digitally are being put to their grave without a tombstone offering evidence they ever
existed. It is our opinion this condition represents a Material Weakness 2 because it significantly
affects NARA’s ability to fulfill its role as records manager for the Federal Government and
adversely impacts its mission of safeguarding and preserving essential and important records of
the nation. The lack of a robust and comprehensive program, including appropriate and adequate
internal controls, for the management of electronic records impedes NARA’s efforts to identify,
capture, and ultimately make available the permanent electronic records of the Federal
Government.

Managing and preserving records in the digital age presents a unique set of challenges not just
for NARA but for all Federal agencies. Managing electronic records, given their explosive

2 A Material Weakness in NARA programs is formally defined as a condition that has a significant impact on
NARA’s ability to perform its mission.

SEMIANNUAL REPORT TO CONGRESS                                                                          Page 12
October 1, 2009 to March 31, 2010
AUDITS

growth in volume, creates challenges for finite resources. The proliferation of formats poses
technological challenges associated with ensuring records can be preserved and used years into
the future. Changes in technology create issues concerning the integrity and authenticity of
records created and maintained in electronic format. Finally, the business models for managing
records in a paper-based environment are no longer adequate and must be replaced by policies
and procedures adapted for records management in the digital age. It is incumbent upon NARA,
whose mission is to safeguard and preserve the records of our Government, to meet the
challenges associated with managing records in the digital age and to take the actions necessary
to ensure electronic records are identified, scheduled, preserved, and made accessible for as long
as their value dictates.

NARA has tended to focus its records management efforts on developing regulations, issuing
guidance, and providing training to Federal agency officials. There have been few inspections,
and oversight and enforcement have been undertaken primarily in response to problems
identified in the press or through other sources. Thus, NARA has not independently undertaken
adequate measures to proactively identify deficiencies. However, this view of NARA’s role and
responsibilities may be changing. In responding to the U.S. Senate Committee on Governmental
Affairs pre-hearing questions on his nomination, the recently appointed Archivist indicated
NARA needs to take more of a leadership role in electronic records management and has
responsibility not only for developing and issuing records management policy, but also for
ensuring records management standards are met.

NARA continues to address the challenges presented by electronic records, including (1)
providing electronic records management guidance in 36 CFR Chapter XII; (2) developing and
promulgating supplemental guidance on electronic records management via bulletins, white
papers, best practices, and Frequently Asked Questions, and; (3) performing targeted studies and
evaluations of electronic records management issues and technologies. In addition, during the
conduct of field work for this audit, NARA established the Integrated Electronic Records
Program (iERP) Task Force responsible for developing a program structure intended to allow
NARA to successfully function and meet its statutory responsibilities in the digital age. NARA
has also initiated its first government-wide data collection effort in an attempt to establish
baseline records management data for all agencies. However, these actions do not adequately
mitigate the weaknesses cited in this report which serve as the basis for our determination that
Electronic Records Management should be identified as a Material Weakness. We made seven
recommendations for program improvement. Management concurred with recommendation one
and requested recommendations two through seven be held in abeyance until recommendation
one has been addressed. (OIG Report #10-04, dated April 2, 2010.)

Search Engine Analysis for the Online Public Access to the Electronic Records
Archives

This audit was performed to advise the Archivist of the current status of the Base Electronic
Records Archives (ERA) Program and focused on the adequacy of the selection process for
choosing the search engine for public access to ERA.



SEMIANNUAL REPORT TO CONGRESS                                                             Page 13
October 1, 2009 to March 31, 2010
AUDITS

Our review found the selection process for choosing the search engine to provide public access
to the Electronic Records Archives (ERA) was inadequate. Specifically we identified ERA
program officials did not independently test or analyze the search engine prior to its selection.
Instead, NARA relied exclusively on the recommendation of the NARA ERA contractor staff.
NARA ERA program officials could not provide OIG auditors with sound and transparent
documentation to validate the selection of the search engine for the largest IT project ever
undertaken by this agency, and one that will impact all NARA stakeholders for the foreseeable
future. NARA’s IT Architecture Systems Development Guidelines require that after evaluating
commercial off-the-shelf products, the findings must be documented and justification provided
for any particular item in the recommendation process. In this case, NARA accepted the ERA
contractor’s selection to the exclusion of other vendors and search engines based upon
incomplete analysis, and devoid of actual hands-on testing by ERA technical staff. Thus, the
selection process was flawed and the impact upon future deployment of the ERA is unknown.

At a key decision point in the development of the ERA System, the public access search engine
was selected without any documentation prepared by the NARA ERA Program Office to indicate
who made the decision or the rationale used for the selection. According to the Director of
ERA’s Systems Engineering Division, in March 2009 NARA’s ERA contractor was tasked with
researching and analyzing commercial search engine products and making a recommendation to
NARA.

OIG auditors sought documentation defining the basis for the vendor selection. Responsible
ERA Program officials referred to a trade study of search engines prepared by the ERA
contractor in 2007. We reviewed this study and identified that the vendor selected by the ERA
contractor was not included in the deliverable as a potential search engine candidate. The OIG
staff was also provided a copy of a 2009 trade report crafted by Gartner Inc. which identified
leaders in the search-engine field. In 2009, per the ERA Systems Engineering Director, the ERA
contractor brought in 10 to 12 vendors who provided demonstrations, some of which were
reportedly attended by NARA ERA program staff but not the Systems Engineering Director or
Program Director. After the demonstrations, the list of potential vendors was narrowed to three.
Then, the ERA contractor developed a list of questions for these three vendors that contained
weighted criteria areas such as vendor viability and product functionality. Subsequently, the
NARA ERA contractor selected one of the three vendors. The Director told us that he is not
aware of anyone at NARA expressing concerns with the selected vendor, and that his
engineering staff talked with the vendor to clarify technical questions and to obtain a demo
license. However, to reiterate, at the point of selection no evidence exists that ERA technical
staff had actually tested the product selected to assess functionality and capacity specific to
unique ERA requirements.

In August 2009, after ERA staff had reportedly validated the NARA ERA contractor’s selection
we attended a demonstration at the ERA contractor’s facility in Greenbelt, MD. The ERA
contractor officials responsible for the selection presented an overview of the selected product’s
search capabilities. We requested a demonstration of the actual testing that had been performed
on NARA records encompassing those of the Revolutionary War that the ERA contractor had
reportedly ingested into the test bed. Keyword text searches we requested such as “Boston Tea
Party”, “Boston” and “George Washington” came back with no results. Thus the demonstrated


SEMIANNUAL REPORT TO CONGRESS                                                              Page 14
October 1, 2009 to March 31, 2010
AUDITS

ability of the product selected to function with sample ERA-like data failed. The ERA contractor
official subsequently attributed this condition to the fact that he had just ingested the sample data
into the system the night before and had not attempted to conduct queries such as the one we
requested prior to the demonstration. Notwithstanding this fact, the product selected had already
been recommended to the exclusion of other search engines by these very engineers.

OIG auditors asked the ERA Systems Engineering Director what internal documentation there
was to support the search engine analysis and selection; he stated there may be some minutes of
meetings with the ERA contractor and an e-mail message notifying the ERA contractor of the
search engine selection. To date these minutes have not been produced and provided to OIG
staff. Due to the fact the demonstration searches did not yield any results, we asked ERA
officials what independent analysis, if any, they performed on the selected search engine. The
ERA Systems Engineering Director told us he had a copy of the search engine which he
reviewed for functionality, but had not tested it using actual ERA data.

On January 12, 2010, we met with Director of the ERA Program and the ERA Systems
Engineering Director to determine if any further analysis of the selected search engine was
performed after the demonstration we attended in August 2009. The ERA Systems Engineering
Director stated no further testing or analysis was conducted due to lack of resources and his
belief he had no standing in this regard, that the selection of the ERA search engine was the
responsibility of the ERA contractor under their contract. He further stated that if NARA would
have to move to a different search engine it would likely be costly and technologically difficult.
In our opinion, ERA officials should have exercised due diligence over the selection of this
important system component by independently conducting their own tests and analyses prior to
its selection, and not relying solely on the contractor’s analysis. The rationale for not doing so,
based upon inadequate internal ERA staffing and resources for a project of this scope, is
troubling. (Audit Report# 10-03, dated January 28, 2010.)

National Historical Publications and Records Commission (NHPRC) Grant
No. 2004-026
The objectives of this audit were to determine whether (1) funds utilized were expended in
accordance with Federal guidelines and (2) NARA objectives for issuing the grant were
accomplished. The performance objective of the grant project was to complete and publish the
final two volumes of an eight-volume research and historical preservation project.

Although the grant objectives were met, we questioned the entire Federal grant award of
$762,320 provided due to lack of documentation/timesheets supporting labor cost. The grant
agreement identified that all Federal funds were used for labor expenses. The grantee was
unable to provide required personnel activity reports or timesheets to support labor expenses
reportedly incurred. Grantee personnel stated they were unaware timesheets were required and,
thus, did not have a process to record and document their labor costs even though this
requirement was stipulated in the grant award. OMB Circular A-122 states the distribution of
salaries and wages to Federal awards must be documented by personnel activity reports
(timesheets). As a result of the grantee’s non compliance with Federal regulations, we were
unable to determine the validity of Federal funds paid.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 15
October 1, 2009 to March 31, 2010
AUDITS

During the audit we interviewed the grantee Director, Assistant Director, and Project Director.
All three have been involved with the history of this grant which spans 29 years and all stated
they were unaware timesheets were required. Both the grantee Director and Assistant Director
stated they were aware of Federal regulations associated with grant funding as these regulations
were identified in their grant agreement. However, both readily admitted they did not read the
applicable regulations.

Federal funds were used to pay most of the salaries and wages of three full-time employees and
one part-time employee. All employees reportedly worked on the grant project exclusively and
were paid a predetermined salary. The grantee Project Director stated she monitored the hours
and productivity of the staff working on the grant project. However, without timecards for
review, we were unable to determine whether employees were consistently working full-time on
the project.

OMB Circular A-122 Appendix B paragraph (8) (m) entitled Support of salaries and wages,
states activity reports must be maintained for all staff members whose compensation is charged,
in whole or in part, directly to awards and must have the following attributes: a) reflect an after-
the-fact determination of the actual activity of each employee (budget estimates do not qualify);
(b) must account for the total activity for which employees are compensated; (c) must be signed
by the individual employee, or by a responsible supervisory official; and (d) must be prepared at
least monthly and must coincide with one or more pay periods. As a result of SCHS’s omission
to specifically account for labor costs according to Federal regulation, we question all of the
costs for labor expenses.

 We provided a copy of our audit report to management for resolution. Management reviewed
our report, spoke with the grantee and concluded that sufficient evidence existed to substantiate
that the Federal funds granted were used in an appropriate manner by the grantee and that there
was no reason to consider seeking recovery of any of the funds. Additionally, management
indicated that steps would be taken in the future to prevent additional occurrences of this event.
(Audit Report #10-01, dated October 26, 2009)

Audit of NARA’s Fiscal Year 2009 Financial Statements
Cotton & Company LLP (C&C), a public accounting firm, audited NARA’s consolidated
balance sheets as of September 30, 2009, and the related statement of net cost, changes in net
position and budgetary resources, for the year then ended.

C&C issued NARA an unqualified opinion on NARA’s FY 2009 financial statements. This is
the fourth year in a row NARA received an unqualified opinion. For FY 2009, C&C reported
two significant deficiencies in internal control over financial reporting in the areas of Personal
Property and Information Technology resulting in 18 recommendations that, if implemented,
should correct the matters reported. C&C disclosed no material weaknesses and no instances
of noncompliance with certain provisions of laws and regulations. Management concurred
with the recommendations.



SEMIANNUAL REPORT TO CONGRESS                                                                Page 16
October 1, 2009 to March 31, 2010
AUDITS

We monitor C&C’s performance of the audit to ensure it is conducted in accordance with the
terms of the contract and in compliance with GAO-issued Government Auditing Standards and
other authoritative references, such as OMB Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. We are involved in the planning, performance and reporting phases of the
audit through participation in key meetings, discussion of audit issues, and reviewing of C&C’s
work papers and reports. Our review disclosed no instances wherein C&C did not comply, in all
material respects, with the contract or Government Auditing Standards. (Audit Report #10-02,
dated December 11, 2009.)




SEMIANNUAL REPORT TO CONGRESS                                                          Page 17
October 1, 2009 to March 31, 2010
INVESTIGATIONS

                                Investigations Overview

During this reporting period, the Office of Investigations (OI) opened 10 investigations and
closed 18 investigations, three of which are closed pending an administrative response from
NARA. The OI also received 46 complaints and closed 33 complaints, four of which are closed
pending an administrative response from NARA. Three NARA records were recovered during
the period. Additionally, the OI worked with the State Department’s Diplomatic Security
Service, the Federal Protective Service, the Department of Justice’s Computer Crime and
Intellectual Property Section, the FBI, the U.S. Secret Service, the Postal Inspection Service and
the Offices of Inspectors General at the Veterans Administration, the General Services
Administration, the Department of Labor, and the Small Business Administration. At the close
of the period, there remained 39 open complaints and 35 open investigations.


                Updates on Previously Reported Investigations
Alleged Wire Fraud, Theft of Public Money, Money Laundering
A former NARA employee and a former NARA contractor, who are alleged to have stolen
nearly $1 million from NARA, have been indicted by a Federal grand jury in the District of
Maryland. Arrest warrants were subsequently issued and executed. Both subjects have made
their first appearances in court, and the NARA OIG seized two vehicles belonging to the former
contractor. Prosecutorial determinations are pending.

Mishandling of Classified Documents
Continuing security violations at the Washington National Records Center (WNRC) prompted
the Office of Inspector General to initiate an investigation in the interest of national security.
Pursuant to the completion of an inventory at NARA’s Suitland facility of Top Secret and/or
Restricted Data materials, 84 boxes of TS/RD material remain missing. This investigation
remains open and ongoing.

Counterfeit/Grey Market IT Contract Fraud
An IT contractor provided NARA with counterfeit and “grey market,” or resold, equipment in
violation of the contract terms. The case has been accepted for prosecution by an Assistant
United States Attorney for mail and wire fraud, as well as false claims. The investigation
remains ongoing.

Lost/Stolen Presidential Records
Four folders containing negatives of Clinton Presidential photographs were lost after a request
for the photographs was processed at the William J. Clinton Presidential Library. This
investigation was not resolved. While violations of NARA policy related to the security of
NARA holdings were substantiated, the missing folders were not recovered. Library staff were
counseled on NARA policy.




SEMIANNUAL REPORT TO CONGRESS                                                                Page 18
October 1, 2009 to March 31, 2010
INVESTIGATIONS

Security Clearance Suitability
During the reporting period, the OIG learned of multiple NARA employees who had previously
traveled to a country with which the United States does not have full diplomatic relations. The
case was referred to OIG to ensure the travel was authorized and did not constitute a violation of
U.S. law or raise suitability issues regarding any employees’ security clearance. Investigative
results were given to NARA management, and ultimately no administrative actions were taken.

Mismanagement at a Presidential Library
The OIG received allegations of financial mismanagement at a Presidential library. The OIG,
working with NARA’s Office of Presidential Libraries, which had conducted its own internal
financial review, found no wrongdoing on the part of NARA officials.

Stolen/Missing Clinton hard drive
A two-terabyte hard drive used to back up records from the Clinton Administration was
discovered missing. Working with NARA, the OIG began analyzing another copy of the hard
drive, which was determined to contain a voluminous amount of sensitive and privacy-related
information. The OIG conducted a forensic analysis of the drive for classified information.
Some documents classified at the SECRET level were discovered and referred to NARA for a
current classification review and status determination. The missing drive was not recovered.
Three NARA employees were suspended due to the ineffective security posture surrounding the
drive.

Indecent Exposure
During the previous reporting period, OIG received a report of a naked male seen at the National
Archives Building in Washington, DC. OIG’s investigation determined the identity of the
subject, who is a NARA employee. The employee initially denied any wrongdoing, but
ultimately confessed to removing his clothes while in a NARA research room library on this
occasion and to the same conduct in and around NARA office space on an earlier occasion. The
case was referred to the Washington, DC Attorney General and is scheduled for prosecution
during the next reporting period. As of the close of this reporting period, we have been informed
that no administrative action has been taken against the subject. He remains on duty.

                             New Investigation Highlights
Shoplifting
A woman was arrested at the JFK Presidential Library in Boston for shoplifting from the
library’s gift shop. The subject was charged with violating Massachusetts law. Prosecution is
pending.

Sending Threatening Letters
A Rhode Island resident was investigated for sending threatening letters to NARA employees in
St. Louis. The Office of Investigations worked with local law enforcement, as well as the U.S.
Postal Inspection Service to investigate the case. The allegations were substantiated. An
Assistant United States Attorney declined prosecution.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 19
October 1, 2009 to March 31, 2010
INVESTIGATIONS

Improper Disposal of Computer Tapes
A complaint alleged that sensitive information collected on computer tapes at NARA was subject
to compromise due to NARA’s failure to adequately control the destruction of the tapes. Our
investigation revealed that NARA had no adequate or uniform policy in place to address the
issue of how to securely destroy old tapes and protect the information on them. A management
letter addressing this issue is pending.

Obstruction of Audit/Criminal Investigation
Contractors being interviewed as part of an audit and criminal investigative process informed the
OIG that a NARA employee had expressly prohibited the contractors from communicating with
the OIG. The allegations were substantiated and the subject was advised not to interfere with the
OIG’s communications with contractors. Upon explanation of the laws and regulations
governing such conduct, the NARA employee removed the prohibitions on communication. An
Assistant United States Attorney declined prosecution.

Conflict of Interest
An anonymous complainant accused NARA personnel of willingly allowing a close personal
relationship with a contractor to influence decisions and actions on a NARA IT support contract.
This investigation determined that the subject NARA employee was not an evaluation team
member or technical advisor during the proposal evaluation process. An Assistant United States
Attorney declined prosecution.

Misuse of Government Credit Card
NARA’s Financial Services Division notified the OIG of questionable charges on an employee’s
Government Travel Card. When interviewed, the subject made multiple false statements to
NARA staff, and criminal investigators, before admitting culpability. An Assistant United States
Attorney declined prosecution, and the case was referred to NARA for administrative action.

False Billing
The subject company was initially investigated for allegations of a bid-rigging scheme to steer
government contracts to itself and its alleged co-conspirators. While that charge was not
substantiated and prosecution was declined by an Assistant United States Attorney, a civil case is
pending for an outstanding debt of more than $250,000 owed to NARA.

Grant Fraud
The National Historical Publications and Records Commission (NHPRC) informed the OIG of a
possible misuse of Federal grant funds by a NARA grantee. OIG investigators and audit staff
substantiated that the grantee, under the direction of its Executive Director, misused Federal
grant funds. This investigation did not reveal direct evidence to support intentional misuse of
Federal grant funds by any employee or contract employee of the grantee. However, the
evidence suggests particular grantee staff were aware their actions relating to the NARA grant
funds were inappropriate. The details of this case were presented to an Assistant United States
Attorney who declined prosecution of this case due in large part to the small amount of funds
misused.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 20
October 1, 2009 to March 31, 2010
INVESTIGATIONS

IT Intrusion
A NARA server located in Rocket Center, West Virginia, was accessed without authorization. A
log examination revealed evidence of human intervention and the case was referred to the OIG.
An OIG investigation revealed the server was accessed without authorization by an unidentified
individual to act as a platform to launch further attacks against other machines and not for
deliberately infiltrating a government network or to access government data. The Department of
Justice (DOJ) Computer Crimes and Intellectual Property Section (CCIPS) declined this case for
prosecution.

Holdings Security Assessment
The Office of Investigations conducted a proactive holdings security assessment designed to test
the balance between access to and security of our nation’s historical records. The results of the
assessment, along with observations made, were provided to NARA management via
management letter.


                      Other Office of Investigation Activity

Archival Recovery Team
During this period, the Archival Recovery Team (ART) fielded 11 complaints and opened two
investigations. Eight complaints and three investigations were closed. In addition, three non­
criminal ART cases were referred to NARA for a recovery determination. At the close of the
period, 22 ART complaints and five ART investigations remained open. Three NARA holdings
were recovered during the period.

Social Media: The ART has begun to proactively explore the use of new social media and
continues to develop an ART focused Facebook page reflecting the mission of the ART at
NARA. The page is slated for launch in the next reporting period and will highlight the stories
behind documents and artifacts that have been alienated from NARA's holdings. The site will
also update Facebook visitors about upcoming shows and happenings with the ART, along with
other newsworthy items about document thefts, investigations, and recoveries at other
institutions.

Records Review: During this period, the ART began a proactive initiative to examine records
series containing documents authored by prominent Government officials or documents deemed
historically valuable. These are records which have undergone preservation treatment or been
removed from archival stacks for exhibition purposes. They provide a known inventory from
which the ART can assess storage and security measures for these records, as well as whether
any are missing. Highlights of this initiative include examinations of reports authored by Civil
War officers David Farragut, David Dixon Porter, and Braxton Bragg; encounter reports created
by World War II fighter aces; and correspondence sent to the Chief of Ordnance by George S.
Patton and Douglas MacArthur.



SEMIANNUAL REPORT TO CONGRESS                                                             Page 21
October 1, 2009 to March 31, 2010
INVESTIGATIONS

Outreach: As part of the ART’s outreach program targeting individuals and groups who may
have interactions with historic records, Office of Investigations staff manned displays at the
following shows to educate the public about the NARA OIG and ART:

       •	 In October 2009, ART members attended and displayed at the Autumn Gettysburg
          Antique Gun & Military Show, which included dealers in Civil War, WWI and WWII
          memorabilia.

       •	 In December 2009, ART members attended and displayed at the 22nd

          Annual Middle Tennessee Civil War Show at Nashville, TN.


       •	 In February 2010, ART attended the Civil War show in Dalton, Georgia.

Computer Crimes Unit

During the reporting period, the Computer Crimes Unit (CCU) provided digital forensic support
to numerous criminal investigations. The CCU participated in the execution of a search during
which a forensic image was obtained from a computer workstation. The CCU also performed
forensic examination of other digital evidence including internal hard drives, external hard
drives, and restored email. In addition to supporting criminal investigations, the CCU also
devoted a significant amount of time during this reporting period examining digital media to
assess NARA’s exposure resulting from the loss of digital media containing Personally
Identifiable Information (PII) and other sensitive information. The CCU also investigated the
unauthorized access of a NARA server on a Department of Defense network. The CCU also
purchased a variety for equipment to enhance the capabilities of the OIG computer laboratory.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 22
October 1, 2009 to March 31, 2010
INVESTIGATIONS

                                        OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

   •   By telephone
       Washington, DC, Metro area: (301) 837-3500 

       Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

   •   By mail
       NARA OIG Hotline
       P.O. Box 1821

       Hyattsville, MD 20788-0821 

   •   By e-mail
       oig.hotline@nara.gov
   •   By online referral form
       http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition.

Where appropriate, referrals are made to the OIG audit staff, NARA management, or external
authorities. Hotline contacts are captured as complaints in the Office of Investigations. The
following table summarizes complaints received and Hotline activity for this reporting period:

                    Complaints received                                      46
                    Complaints closed pending response from NARA              4
                    Complaints closed final                                  29
                    Complaints open to Investigations                         4


                         Contractor Self Reporting Hotline
To comply with the self-reporting requirements in the Federal Acquisition Regulation, a web-
based form has been created to allow NARA contractors to satisfy the requirement they notify
the OIG, in writing, whenever the contractor has credible evidence that a principal, employee,
agent, or subcontractor of the contractor has committed a violation of the civil False Claims Act
or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or gratuity
violations in connection with the award, performance, or closeout of a contract or any related
subcontract. The form can be accessed through the OIG’s home page, for found directly at:
http://www.archives.gov/oig/contractor-form/index.html


SEMIANNUAL REPORT TO CONGRESS                                                              Page 23
October 1, 2009 to March 31, 2010
AGENCY SIGNIFICANT DEFICIENCIES

  OIG-Identified Program and Operational Significant Deficiencies
The OIG, through audit and investigative work, identified the following program and operational
significant deficiencies. These deficiencies result in Material Weaknesses 3 because they
severely hamper the agency’s ability to carry out its mission and achieve strategic goals. As
such, it is important for OMB and the Congress to be apprised of these deficiencies and agency
actions to address them in order to ensure they receive proper attention. Without appropriate risk
management and risk mitigation strategies, including adequate resources, NARA cannot ensure it
effectively accomplishes its mission.

Oversight of Electronic Records Management

During this reporting period, OIG audit report #10-04, NARA’s Oversight of Electronic Records
Management in the Federal Government (April 2, 2010), found that NARA did not have
adequate controls in place to protect permanent Federal electronic records from loss.
Specifically, NARA cannot reasonably ensure permanent electronic records are being adequately
identified, maintained, and transferred to NARA in accordance with Federal regulations. We
identified the following factors contributing to this condition: (a) NARA does not have a fully
integrated program for adequately addressing electronic records management (ERM); (b) NARA
lacks systematic information on government-wide ERM practices and compliance with
electronic record regulations, guidance and policies – including a program supporting inspections
of the record keeping programs and practices of Federal agencies; (c) the universe of electronic
records and electronic recordkeeping systems has not been adequately identified, and; (d) NARA
lacks an approach to adequately identify possible gaps in scheduled permanent electronic record
accessions. As a result, permanent records which are born and remain digital throughout their
lifecycle are at increased risk of loss, thereby denying their future use to the American public.
Because this condition significantly affects NARA’s ability to fulfill its role as records manager
for the Federal Government and adversely impacts its mission of safeguarding and preserving
essential and important records, our report identified this area as a material weakness.

Holdings Processing

In February 2007, the OIG issued an audit report 4 finding NARA was constrained in its ability to
provide efficient and effective access to, and information about, textual records in NARA’s
custody as the result of large backlogs of inadequately processed records. At the time of our
audit nearly 65 percent of NARA’s textual records were not adequately processed, and the cost
associated with fully processing these records was estimated to be $1.5 billion, approximately
three times NARA’s annual budget. Because these backlogs impeded NARA’s ability to
perform its mission of providing access to records as soon as legally possible, and our audit
revealed the need for additional controls, our report identified processing as a Material
Weakness. An agency-initiated study agreed with our assessment of the impact of backlogs on

3 Material Weakness as defined in OMB A-123, Management’s Responsibility for Internal Control
4 OIG Report No. 07-06, Audit of the Processing of Records Accessioned into NARA (February 28, 2007).

SEMIANNUAL REPORT TO CONGRESS                                                                       Page 24
October 1, 2009 to March 31, 2010
AGENCY SIGNIFICANT DEFICIENCIES

NARA’s ability to perform its mission. This study stated less than half of the holdings at
Archives I and II (where the majority of NARA records reside and which draw the heaviest
researcher use) were controlled at a level of detail enabling researchers to quickly identify
records relevant to their interests. Further, more than one-third were controlled at such a basic
level that even experienced NARA staff had difficulty determining whether they contained
information which may be responsive to a researcher’s request. Despite this, the agency never
reported Processing as a Material Weakness via the Federal Managers Financial Integrity Act
(FMFIA) reporting process.

Current Status: The OIG still believes this to be a Material Weakness and has informed
management via the annual FMFIA process the prior two years. While the processing backlog
has been reduced from 65 percent to 57 percent of NARA’s textual holdings 5, it still represents a
significant obstacle to NARA’s mission. Additionally, recommendations made in our original
audit report, aimed at remedying identified weaknesses and strengthening internal controls, have
yet to be fully implemented. Finally, unless NARA is successful in obtaining additional
resources or improving productivity, significant backlogs will remain into the foreseeable future
as textual records continue to be accessioned into NARA. According to the most recent
management report, NARA has already processed and described the records which can easily be
done, but NARA will have difficulty meeting future processing goals unless additional resources
are obtained.

Holdings Preservation

In June 2005, the OIG issued an audit report identifying resource and reporting deficiencies
associated with NARA’s ability to preserve its holdings 6, and declared these deficiencies to be a
Material Weakness. Specifically, the audit identified: (a) items needing preservation had not
been identified; (b) staffing was inadequate for addressing preservation needs in a timely
manner; (c) there was no criteria for assessing preservation needs/item condition; (d) some
NARA facilities did not meet minimum environmental standards for the preservation of records,
and; (e) preservation performance data was inaccurate. NARA declared Preservation a Material
Weakness in their FY 2005 FMFIA statement. However, in FY 2006 NARA removed this
designation despite our objections that the agency had not yet implemented recommendations
contained in the 2005 audit report. Specifically, the agency had not initiated sufficient controls
to reasonably ensure items needing preservation were identified and preserved in a timely
manner, and preservation backlogs were still substantial at 65 percent of holdings.

Current Status: Progress has been made in addressing the recommendations contained in the FY
2005 audit report. NARA has quantified and requested the funding necessary to bring its current
facilities up to the environmental standards for the storage of permanent textual records.
Information on the condition of our holdings is being collected, and additional resources to
preserve these holdings are being requested. Important to this effort, much needed uniform
criteria for risk assessment and rating have been developed and implemented agency-wide.

5 NARA’s metric does not correlate to any specific unit of measure, such as cubic feet of records, but instead is an
index across NARA’s three main offices and represents the general amount of holdings unprocessed.
6 OIG Report No. 05-13, Evaluation of NARA’s Preservation Program (June 22, 2005).

SEMIANNUAL REPORT TO CONGRESS                                                                               Page 25
October 1, 2009 to March 31, 2010
AGENCY SIGNIFICANT DEFICIENCIES

Uniform protocols for physically working with records are also now in place. Additionally, a
new system developed to centralize information collection and reporting for a majority of
NARA’s records is being rolled out. However, some work remains to be done. Much of the
system, including implementation of priorities and resource allocation, is still generally
segregated by office, preventing agency-wide strategic decision making and complete uniformity
of data management. Importantly, as Management has reported, additional resources are
necessary in order to successfully meet future preservation goals. At the end of the second
quarter of FY 2010, the majority of NARA’s holdings (almost 65 percent) were identified as “at
risk.” While the Preservation Program has made significant strides, the volume of records “at
risk” materially constrains NARA’s ability to accomplish its mission of safeguarding and
preserving the records of our Government.

Information Technology Security Program
In FY 2005 we supported the removal of a Material Weakness in Information Technology (IT)
Security first identified in FY 2000. At the same time we expressed concerns about the state of
NARA’s IT Security environment and indicated additional audit work focused on this area
would be performed in FY 2006. In FY 2006 we performed several IT Security related audits,
including an audit of NARA’s Information Security Program and its adherence to Federal
Information Security Management Act (FISMA) standards 7, which found a number of concerns.
Based on the body of IT Security audit work performed in FY 2006 the OIG informed the
Archivist a new IT Security Material Weakness should be declared. NARA declined reporting
this as a Material Weakness in their FY 2006 assurance statement. In FY 2007 NARA reported
IT Security as a Material Weakness based on the results of a Program Review for Information
Security Management Assistance (PRISMA) review performed by an NH contractor. The OIG
responded we agreed with the declaration of IT Security as a Material Weakness; however we
believed the Material Weakness was too narrowly focused and failed to include weaknesses
identified in several OIG work products. We conveyed to the Archivist IT security concerns in
nine additional IT areas which we believed needed to be addressed before the IT Security
Material Weakness could be downgraded.

Current Status: In FY 2009 the agency reported it was downgrading the IT Security Material
Weakness declared in FY 2007 based on significant accomplishments in addressing concerns
identified in the PRISMA review. The OIG evaluated material submitted by the agency in
support of this claim and found sufficient action had been taken on only two of the 34
recommendations contained in the review. Audit work confirmed continued IT Security
weaknesses in the nine areas first identified by the OIG in FY 2007. During this reporting period
NARA provided a plan for addressing their IT Security issues; it has not yet been evaluated by
the OIG, nor has it been fully implemented by NARA. While the plan may or may not address
the full universe of NARA’s IT Security deficiencies, they still currently exist compromising
NARA’s IT operating environment and leaving NARA vulnerable to attack. For these reasons
we believe IT Security should remain a Material Weakness.




7 OIG Report No. 06-09, Review of NARA’s Information Security Program (August 8, 2006).

SEMIANNUAL REPORT TO CONGRESS                                                             Page 26
October 1, 2009 to March 31, 2010
AGENCY SIGNIFICANT DEFICIENCIES

Artifact Inventory Controls at Presidential Libraries
In October 2007, NARA’s OIG issued a report identifying internal control weaknesses
associated with NARA’s stewardship and management of Presidential artifacts at its network of
Presidential libraries. 8 Specifically, we identified weaknesses adversely impacting NARA’s
ability to account for, control, safeguard, and preserve Presidential artifacts. We believed the
deficiencies were significant enough to warrant a Material Weakness. NARA declared a
Material Weakness in inventory controls over artifacts at Presidential libraries in FY 2007 and
continued to treat it as such in FY 2009.

Current Status: In FY 2009 NARA continued reporting this as a Material Weakness. The OIG
was informally provided with information supporting management action taken to address
findings contained in the report. The OIG is currently evaluating information provided by
management to determine if they support closing recommendations contained in the report.

Holdings Security
Based on the results of OIG investigations into the theft of NARA holdings, NARA declared a
Material Weakness in Holdings Security in FY 2001. While NARA continues to address this
area through a number of initiatives, the OIG continues to investigate thefts of NARA holdings,
and recent audits have identified weaknesses in controls associated with holdings security,
highlighting the need for additional management action in this area.

Current Status: In FY 2009 NARA continued reporting holdings security as a Material
Weakness. NARA has begun to staff the recently created holdings protection program and
conduct a risk assessment of its controls in FY 2010. However, current proactive investigations
have revealed significant weaknesses in this area.


IT Implementation of PII Protections
In FY 2009 NARA declared a Material Weakness related to the security of NARA-owned IT
storage devices. Ongoing OIG investigations of data breaches involving NARA equipment
support this conclusion. However, the nature of some of these breaches point to a problem not
only with IT controls, but also with physical controls over IT equipment and policies governing
how NARA handles and prepares paper documents released to the public.




8 OIG Report No. 08-01, Audit of the Process of Safeguarding and Accounting for Presidential Library Artifacts
(October 26, 2007).

SEMIANNUAL REPORT TO CONGRESS                                                                           Page 27
October 1, 2009 to March 31, 2010
TOP TEN MANAGEMENT CHALLENGES

                                         Overview
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

1.      Electronic Records Archives
NARA’s mission with the Electronic Records Archives (ERA) is to build a system accommodating the
government’s vast amounts of electronic records stored in past, present, and future formats. Electronic
records are vital to how our government works, and their preservation through the ERA will define what
information future generations will be able to access and use. However, the ERA program has
experienced delivery delays, budgeting problems, and contractor staffing problems. Initial Operating
Capacity (IOC) for the ERA Program was delayed from September 2007 until June 2008, and even then
the program functions at IOC were reduced from initial requirements. Also, the component to handle all
White House records, the Executive Office of the President (EOP) System, was segregated out due to
delays and pursued down a separate line of programming. The EOP System achieved IOC in December
2008, and all “priority” data was planned to be loaded into the system by March 2009. However, the
EOP System is not able to handle or ingest any classified records. Moreover, due to issues with the data
received from the White House, the “priority” data was not loaded into the EOP System until September
2009, and a small number of these files are still not loaded. The base ERA program is also experiencing
delays with the next phase of work (i.e., Increment 3) due to extensive contract negotiations. Increment
3 is scheduled to include online public access, a congressional system, and system access to additional
agencies or offices. Currently NARA staff is not able to clearly define what the ERA system will be
able to do or what functions it will provide to NARA when the program reaches Full Operating
Capability scheduled for 2012 at an estimated cost of $453 million. The success of this mission-critical
program is uncertain. The challenge will be to deliver and maintain a functional ERA system to
preserve and provide access to our nation’s electronic records for as long as needed.

2.      Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby ensuring
people can discover, use, and learn from this documentary heritage. NARA provides continuing access
to the essential documentation of the rights of American citizens and the actions of their government.
The effective management of these records is key to accomplishing this mission. NARA must work
with Federal agencies to ensure the effective and efficient appraisal, scheduling, and transfer of
permanent records, in both traditional and electronic formats. The major challenge is how best to
accomplish this component of our overall mission while reacting and adapting to a rapidly changing
technological environment in which electronic records, particularly e-mail, proliferate. In short, while
the ERA system is intended to work with electronic records received by NARA, we need to ensure the
proper electronic and traditional records are in fact preserved and sent to NARA in the first place.



SEMIANNUAL REPORT TO CONGRESS                                                           Page 28
October 1, 2009 to March 31, 2010
TOP TEN MANAGEMENT CHALLENGES

NARA also directs the Electronic Records Management (ERM) initiative, one of 24 Government-wide
initiatives under the E-Government Act of 2002. The ERM initiative will provide guidance to agencies
in managing and transferring their permanent electronic records to NARA, in an increasing variety of
data types and formats. In June 2008, GAO recommended NARA develop and implement an approach
to provide oversight of agency electronic records management programs to provide adequate assurance
that NARA guidance is effective and the agencies are following electronic records guidance. NARA, its
Government partners, and Federal agencies are challenged with determining how best to manage
electronic records and how to make ERM and e-Government work more effectively.

3.     Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers Financial
Integrity Act reporting process in FY 2007 and FY 2008. NARA’s Office of Information Services (NH)
conducted an independent assessment of the IT security program using the Program Review for
Information Security Management Assistance (PRISMA) methodology developed by the National
Institute for Standards and Technology (NIST) in FY 2007. The assessment stated NARA’s policy and
supporting procedures for IT security were weak, incomplete, and too dispersed to be effective.

IT security continues to present major challenges for NARA, including physical security of IT hardware
and technical vulnerabilities within our electronic systems themselves and how NARA operates them.
The confidentiality, integrity, and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure. Each year, risks and challenges to IT security
continue to be identified. NARA must ensure the security of its data and systems or risk undermining
the agency’s credibility and ability to carry out its mission.

4.     Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more aggressively
inform and educate our customers about the services we offer and the essential evidence to which we
can provide access. Unfortunately, over of half of NARA’s textual holdings have not been processed to
allow efficient and effective access to these records. To meet its mission NARA must work to ensure it
has the processes and resources necessary to establish intellectual control over this backlog of
unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate access
to information on-line, will be to provide such access to records created digitally (i.e., “born digital”)
and to identify those textual records most in demand so they can be digitized and made available
electronically. NARA’s role in ensuring the timeliness and integrity of the declassification process of
classified material held at NARA is also vital to public access.

5.     Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records to
meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to ensure its

SEMIANNUAL REPORT TO CONGRESS                                                              Page 29
October 1, 2009 to March 31, 2010
TOP TEN MANAGEMENT CHALLENGES

own facilities, as well as those used by other Federal agencies, are in compliance with these regulations;
and effectively mitigate risks to records which are stored in facilities not meeting these new standards.

6.     Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow older
daily and face degradation associated with time. This affects both traditional paper records, and the
physical media that electronic records and audio/visual records are stored on. The Archivist previously
identified preservation as a material weakness under the Federal Managers’ Financial Integrity Act
reporting process. However, in FY 2006, preservation was downgraded to a reportable condition, and it
is currently being monitored as a significant deficiency. The OIG strongly disagrees with this.
Preserving and providing access to records is a fundamental element of NARA’s duties to the country,
and NARA cannot provide access to records unless it can preserve them for as long as needed. The
backlog of records needing preservation action continues to grow. NARA is challenged to address this
backlog and future preservation needs, including the data integrity of electronic records. The challenge
of ensuring NARA facilities meet environmental standards for preserving records (see OIG Challenge
#5) also plays a critical role in the preservation of Federal records.

7.     Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right equipment
and systems to accomplish NARA’s mission. Complex and high-dollar contracts require multiple
program managers, often with varying types of expertise. NARA is challenged with planning projects,
developing adequately defined requirements, analyzing and testing to support acquisition and
deployment of the systems, and providing oversight to ensure effective or efficient results within costs.
Currently IT systems are not always developed in accordance with established NARA guidelines. These
projects must be better managed and tracked to ensure cost, schedule and performance goals are met.

8.     Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA reporting
process. Document and artifact theft is not a theoretical threat; it is a reality NARA has been subjected
to time and time again. NARA must maintain adequate levels of security to ensure the safety and
integrity of persons and holdings within our facilities. This is especially critical in light of the security
realities facing this nation and the risk our holdings may be pilfered, defaced, or destroyed by fire or
other man-made and natural disasters.

9.     Contract Management and Administration
The GAO has identified Commercial Services Management (CMS) as a Government-wide initiative.
The CMS initiative includes enhancing the acquisition workforce, increasing competition, improving
contract administration skills, improving the quality of acquisition management reviews, and
strengthening contractor ethics requirements. Effective contract management is essential to obtaining
the right goods and services at a competitive price to accomplish NARA’s mission. NARA is
challenged to continue strengthening the acquisition workforce and improve the management and


SEMIANNUAL REPORT TO CONGRESS                                                                 Page 30
October 1, 2009 to March 31, 2010
TOP TEN MANAGEMENT CHALLENGES

oversight of Federal contractors. NARA is also challenged with reviewing contract methods to ensure a
variety of procurement techniques are properly used in accordance with Federal laws and regulations.

10.     Strengthening Human Capital
The GAO has identified human capital as a Government-wide high risk. In November 2007,
OPM reported NARA had not established a formal human capital plan. Instead NARA has
adopted a phased approach to human capital planning. However, earlier this year the Partnership
for Public Service ranked NARA 29th out of 30 large Federal agencies in its "Best Places to
Work in the Federal Government" rankings. The rankings are based on employee responses to
the Federal Human Capital Survey (FHCS) administered biannually by the U.S. Office of
Personnel Management (OPM). In response to the 2008 FHCS, NARA developed an FHCS
Action Plan focusing on Communication, Leadership, Performance Culture, and Training. This
plan incorporates the individual strategies developed by each NARA office and identifies
objectives, actions to be taken, outcome measures, and improvement targets for each.

NARA’s challenge is to adequately address its workforce’s concerns and assess its human capital
needs in order to effectively recruit, retain, and train people with the technological understanding
and content knowledge that NARA needs for future success.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 31
October 1, 2009 to March 31, 2010
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS

          AMENDED, AND OTHER LAWS

REQUIREMENT            SUBJECT                                             PAGE(s)

Section 4(a)(2)        Review of legislation and regulations               9 – 10

Section 5(a)(1)        Significant problems, abuses, and deficiencies      4, 12 – 17,
                                                                           24 – 27

Section 5(a)(2)        Significant recommendations for corrective action   12 – 17

Section 5(a)(3)        Prior significant recommendations unimplemented     37

Section 5(a)(4)        Summary of prosecutorial referrals                  34

Section 5(a)(5)        Information or assistance refused                   37

Section 5(a)(6)        List of reports issued                              35

Section 5(a)(7)        Summaries of significant reports                    12 – 17

Section 5(a)(8)        Audit Reports—Questioned costs                      36

Section 5(a)(9)        Audits Reports—Funds put to better use              37

Section 5(a)(10)       Prior audit reports unresolved                      37

Section 5(a)(11)       Significant revised management decisions            37

Section 5(a)(12)       Significant revised management decisions            37
                       with which the OIG disagreed

P.L. 110-181           Annex of completed contract audit reports           36




SEMIANNUAL REPORT TO CONGRESS                                                       Page 32
October 1, 2009 to March 31, 2010
REPORTING REQUIREMENTS

                   STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                       46
        Investigations pending at beginning of reporting period                         43
        Investigations opened this reporting period                                     10
        Investigations closed this reporting period                                     18
        Investigations carried forward this reporting period                            42
Categories of Closed Investigations
        Fraud                                                                           4
        Conflict of Interest                                                            2
        Contracting Irregularities                                                      1
        Misconduct                                                                      2
        Larceny (theft)                                                                 6
        Other                                                                           3
Investigative Results
        Cases referred – accepted for prosecution                                       0
        Cases referred – declined for prosecution                                       6
        Cases referred – pending prosecutive decision                                   1
        Arrest                                                                          1
        Indictments and informations                                                    0
        Convictions                                                                     0
        Fines, restitutions, judgments, and other civil and administrative recoveries   0
        NARA holdings recovered                                                         3
Administrative Remedies
        Employee(s) terminated                                                          0
        Employee(s) resigned in lieu of termination                                     0
        Employee(s) suspended                                                           0
        Employee(s) given letter of reprimand or warnings/counseled                     2
        Employee(s) taking a reduction in grade in lieu of administrative action        0
        Contractor (s) removed                                                          1



SEMIANNUAL REPORT TO CONGRESS                                                           Page 33
October 1, 2009 to March 31, 2010
REPORTING REQUIREMENTS

                       SUMMARY OF PROSECUTORIAL REFERRALS
                                       Requirement 5(a)(4)
Accepted for Prosecution

None.

Declined for Prosecution

Conflict of Interest
An anonymous complainant accused NARA personnel of willingly allowing a close personal
relationship with a contractor to influence decisions and actions on a NARA IT contract. This
investigation determined that the subject NARA employee was not an evaluation team member
or technical advisor during the proposal evaluation process. An Assistant United States Attorney
declined prosecution.

Misuse of Government Credit Card
NARA’s Financial Services Division notified OIG of questionable charges on an employee’s
Government Travel Card. When interviewed, the subject made multiple false statements to
NARA staff and criminal investigators before admitting culpability. An Assistant United States
Attorney declined prosecution and the case was referred to NARA for administrative action.

False Billing
The subject company was initially investigated for allegations of a bid-rigging scheme to steer
government contracts to itself and its alleged co-conspirators. While that charge was not
substantiated and prosecution was declined by an Assistant United States Attorney, a civil case is
pending for an outstanding debt of more than $250,000 owed to NARA.

Grant Fraud
The National Historical Publications and Records Commission (NHPRC) informed the OIG of a
possible misuse of Federal grant funds by a NARA grantee. OIG investigators and audit staff
substantiated that the grantee misused Federal grant funds. This investigation did not reveal
direct evidence to support intentional misuse of Federal grant funds. However, the evidence
suggests particular grantee staff were aware their actions relating to the NARA grant funds were
inappropriate. The details of this case were presented to an Assistant United States Attorney
who declined prosecution of this case due in large part to the small amount of funds misused.

Obstruction of Audit/Criminal Investigation
Contractors being interviewed as part of the audit and criminal investigative process informed
OIG personnel that a NARA employee had expressly prohibited them from communicating with
the OIG. The allegations were substantiated and the subject was advised not to interfere with the
OIG’s communications with contractors. Upon explanation of the laws and regulations
governing such conduct, the subject removed the prohibitions on communication. An Assistant
United States Attorney declined prosecution.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 34
October 1, 2009 to March 31, 2010
        REPORTING REQUIREMENTS

        Sending Threatening Letters
        A Rhode Island resident was investigated for sending threatening letters to NARA employees in
        St. Louis. The Office of Investigations worked with local law enforcement, as well as the U.S.
        Postal Inspection Service to investigate the case. The allegations were substantiated. An
        Assistant United States Attorney declined prosecution.

        Pending Prosecutorial Determination

        Shoplifting
        A woman was arrested at the JFK Presidential Library in Boston for shoplifting from the
        library’s gift shop. The subject was charged with violating Massachusetts law. Prosecution is
        pending.


                                       LIST OF REPORTS ISSUED

                                                Requirement 5(a)(6)

Report      Title                                Date          Questioned     Unsupported     Funds Put to
No.                                                            Costs          Costs           Better Use
10-01       Audit of the National Historical
            Publications and Records              10/26/2009      762,320        762,320                0
            Commission Grant No. 2004-026
10-02       Audit of NARA’s FY 2009
                                                  12/11/2009           0            0                   0
            Financial Statements
10-03       Search Engine Analysis for Online
            Public Access to the Electronic       01/28/2010           0            0                   0
            Records Archives
10-04       Audit of NARA’s Oversight of
            Electronic Records Management in      04/02/2010           0            0                   0
            the Federal Government




        SEMIANNUAL REPORT TO CONGRESS                                                           Page 35
        October 1, 2009 to March 31, 2010
REPORTING REQUIREMENTS

                   AUDIT REPORTS WITH QUESTIONED COSTS
                                      Requirement 5(a)(8)

                                           Number of               DOLLAR VALUE
Category                                                       Questioned          Unsupported
                                            Reports
                                                                 Costs                Costs

A. For which no management decision
                                                0                  $0                   $0
   has been made by the commencement
   of the reporting period
B. Which were issued during the
                                                1               $762,320             $762,320
   reporting period
   Subtotals (A + B)                            1               $762,320             $762,320
C. For which a management decision has
                                                1               $762,320             $762,320
   been made during the reporting period
   (i) dollar value of disallowed cost          0                  $0                   $0
   (ii) dollar value of costs not
                                                1               $762,320             $762,320
   disallowed
D. For which no management decision
   has been made by the end of the              0                  $0                   $0
   reporting period
E. For which no management decision
                                                0                  $0                   $0
   was made within 6 months



            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS

Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While an audit on the ERA contract was completed during this period
(please see page 13), this was a program audit as opposed to a contract audit.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 36
October 1, 2009 to March 31, 2010
REPORTING REQUIREMENTS

             AUDIT REPORTS WITH RECOMMENDATIONS THAT

                     FUNDS BE PUT TO BETTER USE

                                       Requirement 5(a)(9)



             CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                        3                       $275,685
   the reporting period
B. Which were issued during the reporting
                                                           0                            $0
   period
   Subtotals (A + B)                                       3                       $275,685
C. For which a management decision has
                                                           2                       $240,000
   been made during the reporting period
   (i) dollar value of recommendations
                                                           2                       $240,000
        that were agreed to by management
        Based on proposed management
                                                           2                       $240,000
        action
        Based on proposed legislative
                                                           0                            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                         0                            $0
        management
D. For which no management decision has
   been made by the end of the reporting                   1                       $35,685
   period
E. For which no management decision was
   made within 6 months of issuance                        1                       $35,685




                             OTHER REQUIRED REPORTS


REQUIREMENT                                 CATEGORY                               SUMMARY
5(a)(3)                   Prior significant recommendations unimplemented        None
5(a)(5)                   Information or assistance refused                      None
5(a)(10)                  Prior audit reports unresolved                         None
5(a)(11)                  Significant revised management decisions               None
5(a)(12)                  Significant revised management decisions with which    None
                          the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                 Page 37
October 1, 2009 to March 31, 2010
